Case: 3:18-cv-00148-MPM-RP Doc #: 21 Filed: 09/04/19 1 of 1 PagelD #: 1212

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI

OXFORD DIVISION -
PATRICIA ANN BROWN MOVANT
Vv. NO. 3:18CV148-M-P
COMMISSIONER OF THE MISSISSIPPI RESPONDENTS

DEPARTMENT OF CORRECTIONS;
ATTORNEY GENERAL OF THE STATE

OF MISSISSIPPI; SHELIA PARKS, WARDEN
OF CENTRAL MISSISSIPPI CORRECTIONAL
FACILITY; and X, Y, and Z

CERTIFICATE OF APPEALABILITY

A notice of appeal having been filed in the above captioned case from either the final order in a
habeas corpus proceeding in which the detention complained of arises out of process issued by a state
court under 28 U.S.C. § 2254, or the final order in a proceeding under 28 U.S.C. § 2255, the court,
considering the record in the case and the requirements of Fed. R. App. P. 22(b) and 28 U.S.C. §
2253(c), hereby finds that:

PART A

[] The applicant has made a substantial showing of the denial of a constitutional right.

SPECIFIC ISSUE(S):
[X]  Acertificate of appealability should not issue.

REASONS FOR DENIAL: For the reasons stated in its memorandum opinion [Doc. #19] and final
judgement [Doo. #18], the court finds that the Movant has failed to “demonstrate that the issues are
debatable among jurists of reason; that a court could resolve issues in a different manner; or that the
questions are adequate to deserve encouragement to proceed further.” Barefoot v. Estelle, 463 U.S. 880,
893 n.4, 103 S. Ct. 3383, 3394 n.4, 77 L.Ed.2d 1090 (1993) (superseded by statute) (citations and
quotations omitted); 28 U.S.C. § 2253(c) (1) and (2). Specifically, the court finds, for the reasons set
forth in its memorandum opinion and final judgment, that the Movant’s claims are without merit and the
instant Motion to Vacate, Set Aside, or Correct Sentence should be denied.

SO ORDERED this the 4" day of September, 2019.

s/ MICHAEL P. MILLS
UNITED STATES DISTRICT JUDGE
NORTHERN DISTRICT OF MISSISSIPPI

APPENDIX B
